AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Special Report

 Management Challenges at the
 Department of Energy




 DOE/IG-0712                              December 2005
SPECIAL REPORT ON MANAGEMENT CHALLENGES AT THE
DEPARTMENT OF ENERGY


TABLE OF
CONTENTS

            Analysis of Management Challenges

            Background                                      1

            Department Successes in Meeting
            the President's Management Agenda               1

            Management Challenges                           2


            Appendices

            1. Watch List                                   16

            2. Comparison of Management Challenges
               Reported by Various Groups                   19

            3. Related Reports Issued in Fiscal Year 2005   20
Analysis of Management Challenges

Background             The Department of Energy (Department) is a multi-faceted agency
                       that encompasses a broad range of national security, scientific, and
                       environmental activities. To accomplish its mission, the
                       Department receives an annual appropriation of approximately $24
                       billion, employs approximately 120,000 Federal and contractor
                       personnel and manages assets valued at more than $128 billion,
                       including a complex of national laboratories.

                       As required by the Reports Consolidation Act of 2000, the Office
                       of Inspector General has identified what it considers to be the most
                       significant management and performance challenges facing the
                       Department. This effort, which is completed on an annual basis,
                       reflects new work performed by the Office of Inspector General
                       and assesses the agency's progress in addressing previously
                       identified challenges, as well as emerging issues facing the
                       Department.


Department Successes   In 2001, the Office of Management and Budget (OMB)
in Meeting the         issued the President's Management Agenda. The Agenda
President's            included five Government-wide initiatives for improving
Management Agenda      management and performance: strategic management of human
                       capital, competitive sourcing, improved financial performance,
                       expanded electronic Government, and budget and performance
                       integration. OMB rated each agency as either "red" (indicating
                       unsatisfactory performance), "yellow" (indicating mixed results),
                       or "green" (indicating successful implementation of the initiatives).
                       When OMB initially issued the scorecard, it rated the Department
                       red on each of the five initiatives. However, the Department has
                       since made significant improvements and was rated green on three
                       of the five measures and yellow on the remaining two measures on
                       the September 2005 scorecard.

                       For instance, the Department has made strides in overcoming
                       challenges in performance management and was recognized by
                       OMB for numerous best practices in this area. In July 2005, OMB
                       recognized the Department's Performance Mapping Tool as a best-
                       in-class practice for estimating the marginal cost of different levels
                       of performance. The Department has also made meaningful
                       improvements in its performance reporting and received the
                       Association of Government Accountant's Certificate of Excellence
                       in Accountability Reporting Award for its Fiscal Year (FY) 2004
                       Performance and Accountability Report. In 2003, recognizing the
                       Department's improvements, the Office of Inspector General began
                       reporting this subject on the watch list rather than as a management
                       challenge. This year, we deleted performance management from
______________________________________________________________________

Page 1                                                     Department Successes
______________________________________________________________________

                     the watch list due to the Department's continuing success in this
                     area.

                     The Department also made improvements in contract
                     administration. The Agenda's competitive sourcing initiative was
                     designed to generate significant savings and noticeable
                     performance improvements by ensuring efficient and effective
                     competition between public and private sources. In the 2004
                     Competitive Sourcing Results Report, OMB identified the
                     Department's competitive sourcing program as a model for other
                     Federal agencies. Furthermore, in its first three competitions, the
                     Department reported a 25 percent or better annual savings for each
                     function competed compared to its baseline costs. Despite the
                     Department's progress in addressing contract administration, we
                     continue to identify contract administration as a management
                     challenge due to issues identified in our audits.


Management           Although the Department has made considerable progress in
Challenges           meeting the Agenda's initiatives, it continues to face the following
                     challenges that require management attention: national security,
                     environmental cleanup, stockpile stewardship, contract
                     administration, project management, information technology, and
                     financial management and reporting. These challenges represent
                     both the risks inherent to the Department's complex operations and
                     the risks related to the Department's management processes.


                                          National Security

                     The Department plays a vital role in the Nation's security by
                     ensuring nuclear weapons safety, promoting international nuclear
                     safety, advancing nuclear non-proliferation, and providing safe and
                     effective nuclear power plants for the U.S. Navy. As in previous
                     years, we have identified national security as a management
                     challenge due to both the importance of the Department's
                     operations and the continuing nature of security threats.

                     During FY 2005, the Department made progress in addressing the
                     management challenge on national security. For example, the
                     Department completed site assistance visits for all but one of the
                     Category I special nuclear material facilities. These assistance
                     visits provided an evaluation of technological security options for
                     addressing the Design Basis Threat. The last assessment is
                     scheduled for the first quarter of FY 2006. Additionally, senior
                     management continued to focus on actions needed to address the



Page 2                                                      Management Challenges
______________________________________________________________________

                     Secretarial Security Initiatives. Presented in May 2004, the
                     initiatives aim to improve security at Department facilities around
                     the country.

                     Despite the Department's progress, our work and recent incidents
                     underscore the need for continued vigilance and emphasis on
                     security issues. For instance, our inspections highlighted problems
                     with access controls at various facilities across the complex. At
                     the Y-12 National Security Complex (Y-12), we found that foreign
                     construction workers using false identification were improperly
                     allowed access to a leased facility on multiple occasions. The
                     improper access to the facility was a significant concern because
                     information regarding the construction of the leased facility was
                     considered Unclassified Controlled Nuclear Information and
                     Official Use Only. Further, we determined that Y-12 access
                     control procedures, intended to prevent unauthorized access, were
                     either not implemented or ineffective (Security Access Controls at
                     the Y-12 National Security Complex, DOE/IG-0691, June 2005).



                      The Department protects U.S. national security by
                      ensuring the continued safety, security, and reliability of
                      our Nation's nuclear deterrent, working to reduce the
                      global danger from the proliferation of nuclear materials
                      and other weapons of mass destruction, fulfilling the U.S.
                      Navy's requirements for new nuclear propulsion plants
                      that meet current and future national defense
                      requirements, and providing the technical expertise in
                      advancing Homeland Security.

                                  The Department of Energy Strategic Plan, September 2003



                     An FY 2005 inspection at the Los Alamos National Laboratory
                     (LANL) disclosed that more than 40 percent of the terminating
                     employees in our sample did not follow out-processing procedures.
                     As a result, there was no assurance that terminating employees
                     turned in security badges, completed the required security
                     statement, or had security clearances and access authorizations
                     cancelled prior to departure. Further, there was no assurance that
                     terminating employees accounted for classified holdings and
                     personal property or cleared any outstanding financial obligations
                     prior to departure. After completing our fieldwork, LANL revised
                     its out-processing procedures to address some of the concerns
                     raised during the inspection (Security and Other Issues Related to



Page 3                                                       Management Challenges
______________________________________________________________________

                     Out-Processing of Employees at Los Alamos National Laboratory,
                     DOE/IG-0677, February 2005).

                     Our reviews of the Department's protective forces identified
                     needed improvements at some of its most critical national security
                     sites. At the Oak Ridge Reservation, we confirmed an allegation
                     that a security police officer was given credit for training that the
                     officer did not receive. Of greater importance, we concluded that
                     there were material shortcomings in the site's implementation of
                     the protective force training program (Protective Force Training
                     at the Department of Energy's Oak Ridge Reservation,
                     DOE/IG-0694, June 2005). Our inspectors also concluded that
                     additional measures could have been implemented to improve
                     physical security of Strategic Petroleum Reserve (Reserve) sites.
                     Specifically, we found that the Reserve's deadly force policy and
                     protection level against the "insider threat" may not have been
                     commensurate with its designation as part of the Department's
                     critical infrastructure. In addition, opportunities existed for some
                     protective force performance tests to be more realistic (Review of
                     Security at the Strategic Petroleum Reserve, DOE/IG-0693, June
                     2005).


                                       Environmental Cleanup

                     The Department is responsible for cleaning contaminated sites and
                     disposing of radioactive waste resulting from nuclear weapons
                     production, nuclear powered naval vessels, and commercial
                     nuclear energy production. Due to the risks and hazards associated
                     with this difficult and costly task, we have identified
                     environmental cleanup as a significant management challenge.

                     During FY 2005, the Department made progress in reducing risks
                     to its workers, the public, and the environment at several sites. For
                     instance, at the Hanford Site, the Department completed moving
                     spent nuclear fuel from basins located near the Columbia River to
                     a dry storage facility. Also, the Department completed the
                     shipping of transuranic waste from the Rocky Flats Environmental
                     Technology Site and was on track to complete physical cleanup by
                     the end of the year. However, our work revealed issues concerning
                     the timeliness of the Department's ongoing cleanup efforts. For
                     instance, abandoned and unused wells at the Hanford Site had not
                     been decommissioned in a timely manner. Although Richland
                     Operations Office (Richland) officials estimated that the site was
                     capable of decommissioning between 104 and 150 wells per year,
                     only 146 wells were decommissioned in the three year period from



Page 4                                                       Management Challenges
______________________________________________________________________

                     FY 2002 through 2004 (Well Decommissioning Activities at the
                     Hanford Site, DOE/IG-0670, January 2005).

                     We also concluded that the Department would not meet its
                     commitments for removing transuranic waste from LANL. Based
                     on the projections at the time of the audit, the Department was
                     about 10 months behind schedule for removing all high-risk waste.
                     Furthermore, we estimated that it was unlikely that the Department
                     would remove the remaining legacy transuranic waste at the site
                     until at least 2014, four years beyond the commitment date
                     (Transuranic Waste Management at Los Alamos National
                     Laboratory, DOE/IG-0673, February 2005).




                              Workers at the Los Alamos National Laboratory remove a drum
                              containing transuranic waste


                     In 2002, the Department's Office of Environmental Management
                     (EM) completed a program-wide review of its operations. It found
                     that EM had not focused on a systematic approach to facility
                     decontamination and decommissioning that emphasized the most
                     expeditious means of addressing health risks and environmental
                     concerns. Furthermore, in a recent report, Improving
                     Characterization and Treatment of Radioactive Wastes for the
                     Department of Energy's Accelerated Cleanup Program (NRC
                     2005), the National Research Council found that the Department
                     was demolishing facilities that were neither contaminated nor in
                     structural jeopardy. Similarly, a recent audit found that the
                     Department's deactivation and decommissioning activities did not
                     always reduce the risk posed to the environment, workers, or the
                     public. Specifically, at the Savannah River Site, the Department
                     performed deactivation and decommissioning activities on 55
                     facilities that posed no potential risk to the environment, workers,



Page 5                                                                Management Challenges
______________________________________________________________________

                     or the public, and provided minimal reduction in surveillance and
                     maintenance costs. Additionally, some of the facilities that did
                     pose an environment, safety, and health risk were not scheduled for
                     remediation (Deactivating and Decommissioning Facilities at the
                     Savannah River Site, DOE/IG-0684, April 2005).


                                        Stockpile Stewardship

                     The Department's Stockpile Stewardship Program is responsible
                     for ensuring that the U.S. nuclear weapons stockpile is safe, secure,
                     and reliable. This technically complex scientific program
                     encompasses operations associated with manufacturing,
                     maintaining, refurbishing, surveilling, and dismantling the
                     stockpile. The program also involves activities associated with the
                     research, design, development, simulation, modeling, and non-
                     nuclear testing of nuclear weapons.

                     The Department has faced project management issues related to
                     the cost, schedule, and scope of various projects supporting its
                     stockpile stewardship mission. For instance, our work found that
                     the National Nuclear Security Administration (NNSA) was at risk
                     of not achieving the first production unit for the B61 refurbishment
                     within the original schedule and scope specifications. Although
                     NNSA experienced unforeseen technical problems that delayed the
                     design and testing of certain components, other delays were
                     avoidable. Further, NNSA reduced the project scope in response
                     to an intra-Department of Defense request, but did not obtain
                     formal approval from the responsible interagency group. Project
                     and customer personnel expressed concerns regarding whether the
                     scope reduction would affect weapon utility (The National Nuclear
                     Security Administration's Refurbishment of the B61, DOE/IG-
                     0697, August 2005).

                     Our work also found that LANL did not complete all hydrotests at
                     the Dual Axis Radiographic Hydrodynamic Test Facility as
                     planned. Fifteen hydrotests were scheduled in FY's 2002 through
                     2004. Of these, six were completed as scheduled, six were delayed
                     up to two years, and three had not been completed as of April
                     2005. This impacted the availability of the data necessary to make
                     decisions concerning weapon primaries, computer models, aging
                     or remanufactured components, and stockpile reliability (The Los
                     Alamos National Laboratory Hydrodynamic Test Program,
                     DOE/IG-0699, September 2005).




Page 6                                                      Management Challenges
______________________________________________________________________




                              The Dual Axis Radiographic Hydrotest Facility's Hydrotest Firing Site
                              under construction


                     In addition, our audit work disclosed project management issues in
                     the construction of NNSA's Pit Disassembly and Conversion
                     Facility. We found that, despite the project's importance and high
                     priority, NNSA would not meet the schedule and cost parameters
                     detailed in the Department's February 2002 Report to Congress.
                     At the time of our review, NNSA's estimate for completion of the
                     Conversion Facility had been delayed four years to 2013.
                     Furthermore, NNSA's costs will likely increase substantially
                     beyond the original estimate of $1.7 billion. While international
                     policy issues played a role in the construction delays, we noted that
                     NNSA experienced difficulty in modifying Conversion Facility
                     equipment from prototype to full-scale production. In addition,
                     NNSA had not identified an approach for disposing of the waste
                     generated by the Conversion Facility and the Mixed Oxide Fuel
                     Fabrication Facility (National Nuclear Security Administration's
                     Pit Disassembly and Conversion Facility, DOE/IG-0688, May
                     2005).


                                          Contract Administration

                     The Department places significant reliance on contractors and
                     grantees to accomplish its mission. In fact, most of the
                     Department's operations are carried out through contracts that
                     consume about three-fourths of its budget. Thus, effective contract
                     oversight is an essential component for the Department's
                     management of its programs. Contracts and grants are awarded to
                     industrial companies, academic institutions, and nonprofit



Page 7                                                                   Management Challenges
______________________________________________________________________

                     organizations that operate a broad range of Department of Energy
                     scientific, industrial, and production facilities.

                     Our reviews in FY 2005 concluded that contract oversight needed
                     improvement in certain areas. For instance, we found that Bechtel
                     BWXT Idaho, the Idaho National Laboratory contractor, did not
                     manage financial management activities of the technology transfer
                     and commercialization program consistent with its contract terms.
                     Specifically, Bechtel did not properly recognize royalties due from
                     licensing activities and did not monitor expenditures to ensure they
                     were within established administrative limits (Management
                     Controls Over the Technology Transfer and Commercialization
                     Program at the Idaho National Laboratory, OAS-M-05-07, June
                     2005).

                     Further, in an audit of the Monticello Mill Site restoration project,
                     we found that the Department's monitor and control efforts over
                     certain aspects of the project were not completely effective.
                     Specifically, the Department did not ensure that funds provided to
                     the city of Monticello were used for long-term maintenance. This
                     occurred because the Department did not properly structure the
                     cooperative agreement with Monticello and did not require strict
                     compliance with certain terms of the agreement. However, the
                     Department contended that the use of a cooperative agreement
                     allowed the city flexibility to meet the Department's regulatory
                     requirements and also meet its recreational needs (Restoration of
                     the Monticello Mill Site at Monticello, Utah, DOE/IG-0665,
                     October 2004).




                              Erosion at the Monticello Mill Site




Page 8                                                              Management Challenges
______________________________________________________________________

                     Inadequate oversight of contract costs has also been a long-
                     standing management issue. To illustrate, our audit work disclosed
                     instances where contractors sought and were reimbursed for
                     approximately $255,000 in questionable meal expenses. The
                     Department paid for these costs because it had not developed or
                     implemented specific guidance regarding contractor meals.
                     Further, we found no evidence that the contracting officers had
                     reviewed and approved contractor written policies. The
                     Department indicated that its meal expense policy mirrors the
                     Government-wide policy. Nonetheless, the Department responded
                     to our audit report by issuing an Acquisition Letter addressing
                     meal expenses incurred by its Management and Operating
                     contractors (Management Controls Over Meal Expenses at
                     Management and Operating Contractors, OAS-M-05-04, April
                     2005).

                     In a separate review, we found that the Department did not always
                     ensure that reimbursements to contractors for their home office
                     expenses were limited to their equitable share. Our review of five
                     National Laboratory contracts disclosed that the Department
                     agreed to provide fees, fixed payments, and/or reimbursements for
                     actual home office expenses that were potentially duplicative, not
                     adequately documented, improperly calculated, and/or for
                     specifically unallowable items (Department of Energy Contractor
                     Home Office Expenses, DOE/IG-0676, February 2005).

                     To its credit, the Department developed a comprehensive strategy
                     to improve contract management and address issues raised by the
                     Office of Inspector General and the Government Accountability
                     Office (GAO). This strategy included requirements for writing
                     contract management plans, increasing contract competition, using
                     more effective performance objectives and measures, and
                     instituting professional development requirements for contract
                     management officials.


                                            Project Management

                     The Department's numerous multi-million dollar projects support
                     its scientific and technologically complex work. In response to
                     criticisms in past years concerning weaknesses in project
                     management, the Department made several improvements in
                     managing capital asset projects. For instance, in its July 2005
                     document, Achieving Green in Improved Financial Performance,
                     OMB used the Department's Earned Value Management as an
                     example of an initiative accepted as a green standard.



Page 9                                                     Management Challenges
______________________________________________________________________

                     Although we recognize the tremendous strides the Department has
                     made in improving project management, there are still
                     improvements that need to be made. For example, in Progress in
                     Improving Project Management at the Department of Energy:
                     2003 Assessment (NRC, 2004), the National Academies of Science
                     recognized the Department's substantial progress, but indicated
                     that there were still a few areas of concern. Among the concerns
                     was the amount of capital the Department invested in human
                     resource development for project management compared to other
                     Federal agencies or private corporations. Another concern was
                     that there were too few qualified project directors and project
                     management support for the number and complexity of projects.

                     During FY 2005, the Office of Inspector General identified a
                     number of problems in the area of project management. For
                     example, at the Hanford Site, we found that sludge removal
                     operations on the Spent Nuclear Fuels Project had not commenced
                     according to schedule. In addition, our review disclosed that the
                     project had experienced significant cost overruns since FY 2003.
                     While technical difficulties with the sludge removal contributed to
                     the delays, we determined that neither the Department nor the
                     contractor responsible for managing the project focused adequate
                     attention on the sludge removal portion of the project during the
                     critical planning phase. As a result, project milestones were
                     missed and cost overruns could negatively impact the Department's
                     ability to further accelerate cleanup work at the Hanford Site
                     (Sludge Removal Operations at the Hanford Site's K Basins,
                     DOE/IG-0698, September 2005).




                               Sludge and debris in the K East Basin at the Hanford Site




Page 10                                                                 Management Challenges
______________________________________________________________________

                     Additionally, in an Office of Inspector General "Special Report,"
                     we examined the Department's strategy for deactivating,
                     decontaminating, and decommissioning the Fast Flux Test Facility
                     (FFTF) at the Hanford Site. We found that the Department had a
                     unique opportunity to re-evaluate its closure plan for the facility.
                     Changes to the project's operating environment had occurred and
                     the Department's project plan and acquisition strategy may not
                     have been the most effective approach to shutting down the
                     facility. Specifically, the final end state of FFTF remained
                     uncertain and the State of Washington questioned the priority of
                     decommissioning work on the facility. We noted that these and
                     other issues should be thoroughly examined as part of a
                     comprehensive re-evaluation of the Department's future plans to
                     deactivate, decontaminate, and decommission FFTF (Fast Flux
                     Test Reactor: Re-evaluation of the Department's Approach to
                     Deactivation, Decontamination, and Decommissioning, DOE/IG-
                     0683, March 2005).

                     Our work also disclosed project management issues related to the
                     Department's critical role in protecting national and economic
                     security through the reliable delivery of energy. For instance, we
                     found that the Western Area Power Administration (Western) was
                     unable to furnish all planned transmission services to its Central
                     Valley Project customers by January 2005. We noted that a
                     majority of critical project tasks were behind schedule, including
                     those related to power billing, systems integration, and power
                     scheduling. Furthermore, Western had not developed contingency
                     plans to ensure continued operations in the event that critical
                     project tasks were not completed as scheduled. As a result,
                     Western would likely encounter billing and scheduling challenges
                     and incur increased costs that may be passed on to its customers
                     (Management Controls Over Western Area Power Administration's
                     Central Valley Project Transmission Services, OAS-M-05-02,
                     February 2005).

                     To its credit, the Department has recognized the need to pay close
                     attention to project management issues. For example, in response
                     to concerns that key facilities at the Hanford Site's Waste
                     Treatment Plant may not withstand a severe earthquake, the
                     Department formed a Headquarters-based team to examine
                     baseline, technical, contract, and management issues related to the
                     Hanford project.




Page 11                                                     Management Challenges
______________________________________________________________________

                                      Information Technology

                     Information technology is vital to help the Department fulfill its
                     mission and provide efficient and effective services to the
                     American people. As a result of its important role in the Federal
                     Government, OMB included information technology as part of the
                     President's Management Agenda.

                     As in past years, Office of Inspector General reports have
                     highlighted internal control weaknesses impacting the
                     improvement of information technology systems and security. For
                     example, our annual evaluation of the Department's unclassified
                     cyber security program noted weaknesses that could compromise
                     critical systems if left uncorrected. We found problems with
                     ensuring that: (1) only authorized individuals could access
                     information resources; (2) duties and responsibilities for
                     processing financial transactions were properly segregated; and,
                     (3) modifications to applications and systems were authorized and
                     properly controlled. In addition, the Department had not
                     completed contingency planning for several systems, including
                     mission critical systems, to ensure continuing or resuming
                     operations in an emergency or disaster.


                          Rather than considering information technology as
                          an end in itself, the President's Management
                          Agenda refocused information technology as a
                          business investment that supports the
                          accomplishment of the Department's mission.

                                             U.S. Department of Energy e-Government
                                          Progress Report Fiscal Year 2005, June 2005



                     These problems persisted for several reasons. First, the
                     Department did not provide adequate oversight to ensure that
                     previously reported problems were promptly corrected. Second,
                     the Department did not provide adequate oversight to ensure field
                     offices (including contractors) properly implemented all Federal
                     cyber security requirements. To its credit, senior-level
                     Departmental management officials have focused their attention on
                     improving cyber security posture. This promising action, when
                     coupled with existing initiatives, should help to ensure that the
                     Department continues to improve in this important area
                     (Evaluation Report on The Department's Unclassified Cyber
                     Security Program – 2005, DOE/IG-0700, September 2005).



Page 12                                                      Management Challenges
______________________________________________________________________

                     Under the Clinger-Cohen Act of 1996, the Department must
                     implement an enterprise architecture to reduce costs and achieve
                     efficiencies through sound business processes and technology
                     investment management. However, we found that despite
                     significant effort, the Department had not fully defined its current
                     or future information technology requirements. Additionally, the
                     Department had not taken the necessary steps to ensure that
                     program office architectures were complete, compatible with, and
                     supported the agency's overall architecture design. The
                     Department's development efforts were incomplete because it had
                     not defined the roles, responsibilities, and authorities necessary to
                     develop and implement a Department-wide architecture. Further,
                     the Department had not established the scope, schedule, and cost of
                     the development effort (Development and Implementation of the
                     Department's Enterprise Architecture, DOE/IG-0686, April 2005).

                     In addition to computer systems, the Department's information
                     technology includes telecommunication services needed to
                     facilitate its many activities. We found that the Department had
                     only limited assurance that mobile communications devices and
                     services were used and managed in a cost-effective manner. At
                     three of the eight sites visited, our audit work disclosed that the
                     Department could have saved as much as $1.12 million annually
                     by adopting more efficient methods for using and managing
                     communication devices and services. In particular, our review
                     noted opportunities for improvement at the Department's
                     Headquarters, Lawrence Livermore National Laboratory, and Y-12
                     National Security Complex (Use and Management of Mobile
                     Communications Services, DOE/IG-0669, December 2004).


                                Financial Management and Reporting

                     The Office of Inspector General has identified financial
                     management and reporting as a new challenge. In April 2005, the
                     Department implemented the Standard Accounting and Reporting
                     System (STARS) – an accounting and financial reporting system.
                     The Department's implementation of STARS, combined with the
                     October 2004 stand-up of a restructured financial services
                     organization, raised many challenges that adversely impacted the
                     financial management and reporting capabilities of the
                     Department, and the FY 2005 financial statement audit.

                     STARS is the financial management segment of the Department's
                     Integrated Management Navigation System (I-MANAGE). The I-
                     MANAGE system was designed to consolidate and streamline the



Page 13                                                     Management Challenges
______________________________________________________________________

                     Department's business systems by integrating management
                     information related to financial and cost accounting, travel,
                     payroll, budget formulation and execution, procurement and
                     contracts management, facilities management, human resources,
                     and research and development.

                     Prior to the Department's implementation of STARS, we identified
                     a number of challenges that the Department needed to address in
                     order to successfully integrate the new system (The Department's
                     Implementation of I-MANAGE STARS, OAS-L-04-19,
                     August 2004). These challenges included resource issues resulting
                     from simultaneously implementing STARS and reorganizing a
                     significant portion of the accounting function. Specifically, we
                     noted that the Department had not completed testing the system
                     interface and data crosswalk, analyzed and resolved the user
                     acceptance test errors, and identified users to be trained. In a
                     follow-up audit, we determined that although progress had been
                     made, significant issues remained. In particular, two separate
                     accounting systems were needed to produce the FY 2005
                     consolidated financial statements; OMB-imposed accelerated
                     reporting schedules provided only limited time to correct
                     implementation problems; and, the burden of auditing two separate
                     systems of control severely stressed both accounting and auditing
                     resources (Financial System Faces Continued Challenges,
                     OAS-L-05-02, January 2005).

                     Despite devoting substantial effort to implementing STARS, the
                     Department encountered significant problems impacting its
                     financial management and reporting, and the annual financial
                     statement audit. These issues included reporting difficulties,
                     system posting errors, unreconciled accounting data, and data
                     conversion challenges from the accounting system used for the
                     first half of FY 2005 to STARS. For example, as of the end of FY
                     2005, many basic financial management reports, including those
                     needed for audit, had not been developed or had not produced
                     reliable or intended results. In addition, the Department
                     encountered problems in reconciling STARS data to the
                     accounting data generated from many of its major contractors and
                     reconciling certain data to subsidiary ledgers. As a result of these
                     unresolved issues, the FY 2005 financial statement audit resulted
                     in a disclaimer of opinion.

                     To its credit, the Department has taken steps to address the initial
                     challenges associated with the FY 2005 stand-up of the financial
                     services organization and implementation of the new accounting
                     and financial reporting system. For example, it has addressed



Page 14                                                      Management Challenges
______________________________________________________________________

                     many of the transaction processing backlogs experienced in the
                     initial start-up of the new system. In addition, the Department
                     initiated key reconciliations to ensure system data integrity and is
                     taking corrective actions to resolve data conversion issues.
                     Further, the Department established a Chief Financial Officer Issue
                     Resolution Tiger Team to develop an executable, integrated plan of
                     action and milestones in the financial control and reporting area.
                     The team's report is due to the Deputy Secretary by mid-
                     December.




Page 15                                                     Management Challenges
Appendix 1

Watch List           The watch list consists of management issues that do not meet the
                     threshold of major management challenges, yet warrant continued
                     attention by senior Department managers. Watch list issues may
                     include management challenges identified in previous years for
                     which the Department has implemented corrective actions or has
                     achieved positive outcomes. In addition, the watch list may
                     include emerging issues that require Department action. Last year,
                     our watch list addressed three areas: energy supply, worker and
                     community safety, and performance management. This year, we
                     removed performance management from our watch list due to the
                     Department's improvements in this area. However, energy supply
                     and worker and community safety remain on the watch list, joined
                     by human capital, as functions that need to be closely monitored by
                     Department management.


                                                Energy Supply

                     One of the Department's strategic goals is to promote the
                     development and deployment of energy systems that will provide
                     the Nation with clean, efficient, economical, and reliable energy.
                     In achieving this goal, the Department is taking steps to improve
                     energy conservation and efficiency given that the demand for
                     energy in the U.S. is rising much faster than the projected increase
                     in domestic energy production. The Department must also address
                     environmental challenges such as greenhouse gas reduction.
                     Given U.S. reliance on foreign energy sources and the significant
                     impact that energy supply disruptions can have on the Nation's
                     economy and security, energy supply is an ongoing issue that
                     Department management must watch closely. It is important to
                     note that the risks of disruption in energy supply are not restricted
                     to foreign oil imports. For instance, in 2005, Hurricanes Katrina
                     and Rita shut down oil refineries and most of the natural gas and
                     oil production in the Gulf of Mexico.

                     In 2004, the shortfall between energy demand and domestic supply
                     was 27 percent and was projected to increase to nearly 40 percent
                     by 2025. Consequently, dependence on energy supplied by foreign
                     sources, especially petroleum imports from the Persian Gulf
                     region, will continue to increase as it has for the past several
                     decades. To alleviate the growing energy crisis, Congress passed
                     the Energy Policy Act of 2005, establishing a comprehensive,
                     long-range energy policy. The Act: (1) increased the amount of

______________________________________________________________________

Page 16                                                                       Watch List
Appendix 1 (continued)

                    biofuel that must be mixed with gasoline sold in the U.S.; (2)
                    increased coal use as an energy source; (3) required the
                    Department to study existing natural energy resources; (4) required
                    Federal reliability standards regulating the electrical grid; and, (5)
                    authorized the Department to build a nuclear reactor to generate
                    both electricity and hydrogen.

                    To lead the national effort to modernize the electrical grid, the
                    Department established the Office of Electricity Delivery and
                    Energy Reliability in 2003. Although this was a positive step in
                    enhancing the security and reliability of the energy infrastructure,
                    much needs to be done in the broad area of energy supply. For
                    instance, we found that the Bonneville Power Administration did
                    not always provide for efficient utilization of transmission
                    capacity. Specifically, certain customers scheduled more
                    transmission than they needed, or exceeded their planned
                    transmission amounts (Management Controls Over Electricity
                    Transmission Scheduling and Usage for Memo Schedule
                    Customers of the Bonneville Power Administration, OAS-M-05-
                    01, January 2005). In addition, we found that the Department
                    could not ensure that selected critical monitoring and control
                    systems could continue or resume operation with minimal
                    disruption in the event of an emergency (Management Controls
                    Over Critical Monitoring and Control Systems, OAS-M-05-06,
                    June 2005).


                                      Worker and Community Safety

                    Worker and community safety is a high priority for the
                    Department. The large-scale facilities and the dangerous materials
                    that are an integral part of the Department's operations represent
                    safety risks to workers and local communities. Safety incidents
                    may potentially destabilize, delay, and disrupt the Department's
                    critical activities, and have intangible costs such as a negative
                    public perception of the Department. We retained this critical area
                    on our watch list because the Department must continue to give
                    high priority to mitigate safety and health risks.

                    Although the steps that the Department took to address worker and
                    community safety issues prompted us to remove it from the
                    management challenges list in FY 2003, our work continues to
                    identify safety issues that need management attention. For
                    instance, in a 2001 report, we concluded that the Department's
                    biological select agent activities lacked organization, coordination,
                    and direction. Specifically, the Department's activities did not



Page 17                                                                      Watch List
Appendix 1 (continued)

                    have appropriate Federal oversight, consistent policy, and
                    standardized implementing procedures. These shortcomings result
                    in greater risk to workers and others from exposure to biological
                    select agents and select agents material. As a result of our review,
                    the Department created the Biosurety Working Group to examine
                    mechanisms to improve oversight, coordination, and consistency
                    within the Department, and to improve communication and
                    coordination with other agencies (Inspection of Department of
                    Energy Activities Involving Biological Select Agents, IG-0492,
                    February 2001). However, our FY 2005 work found that the
                    Biosurety Working Group was disbanded and the Department had
                    not established an orderly mechanism for coordinating its
                    biological select agent research and development activities
                    (Coordination of Biological Select Agent Activities at Department
                    of Energy Facilities, IG-0695, July 2005).


                                              Human Capital

                    In the 2001 President's Management Agenda, OMB recognized
                    strategic management of human capital as one of the Government's
                    "most glaring problems." The Agenda specifically outlined
                    concerns that the Department's staff lacked adequate project and
                    contract management skills required to oversee large projects. The
                    Department undertook an effort to perform a critical skills gap
                    analysis where program offices reviewed and validated specific
                    critical skills needs. However, due to a shortage of employees
                    with certain skills, particularly in project and program
                    management, our office added human capital to the watch list.

                    In 2005, GAO reported that although NNSA contractors' efforts to
                    recruit and retain employees were generally effective, the pool of
                    technically trained potential employees was shrinking (NNSA:
                    Contractors' Strategies to Recruit and Retain a Critically Skilled
                    Workforce are Generally Effective, GAO-05-164, February 2005).
                    Similarly, our work disclosed that the Department faced a shortage
                    of trained project and program managers. Specifically, we found
                    that over half of the Energy Efficiency and Renewable Energy
                    cooperative agreements we reviewed did not receive adequate
                    management attention. This occurred because the project office
                    did not have sufficient staff to manage the agreements under its
                    cognizance (Selected Energy Efficiency and Renewable Energy
                    Projects, IG-0689, May 2005).




Page 18                                                                    Watch List
Appendix 2

           TABLE COMPARING MANAGEMENT CHALLENGES
                  REPORTED BY VARIOUS GROUPS


              IG                        GAO1                          DOE2
     Environmental Cleanup      Cleanup of Radioactive &       Environmental Cleanup
                                    Hazardous Waste
                                                              Nuclear Waste Disposal
       National Security         Security Threats and                 Security
                                       Problems
     Stockpile Stewardship     Nuclear Weapons Stockpile       Stockpile Stewardship

    Contract Administration       Contract Management         Oversight of Contractors

      Project Management                                        Project Management

    Information Technology                                    Information Technology
         Management                                                Management
                                                                 Safety and Health

                                                             Human Capital Management

                                 Revitalize Infrastructure

                                 Leadership in Meeting
                                 Nation's Energy Needs
     Financial Management
         and Reporting
                                                             Unclassified Cyber Security




1
 According to Major Management Challenges and Program Risks, Department of Energy
(GAO-03-100, January 2003).
2
DOE's self-identified "Management Challenges and Significant Issues" according to U.S.
Department of Energy Performance and Accountability Report, FY 2005 (November 2005).

______________________________________________________________________
Page 19                            Table Comparing Management Challenges
                                                Reported by Various Groups
Appendix 3 (continued)

Stockpile Stewardship

      •   Audit Report on The Los Alamos Neutron Science Center (DOE/IG-0666,
          November 30, 2004).
      •   Audit Report on National Nuclear Security Administration's Pit Disassembly and
          Conversion Facility (DOE/IG-0688, May 3, 2005).
      •   Audit Report on The National Nuclear Security Administration's Refurbishment of the
          B61 (DOE/IG-0697, August 30, 2005).
      •   Audit Report on The Los Alamos National Laboratory Hydrodynamic Test Program
          (DOE/IG-0699, September 16, 2005).

Contract Administration

      •   Audit Report on Restoration of the Monticello Mill Site at Monticello, Utah
          (DOE/IG-0665, October 28, 2004).
      •   Audit Report on Department of Energy Contractor Home Office Expenses (DOE/IG-
          0676, February 14, 2005).
      •   Audit Report on Management Controls over Meal Expenses at Management and
          Operating Contractors (OAS-M-05-04, April 20, 2005).
      •   Audit Report on Management Controls over Patent and Royalty Income at Ames
          Laboratory (OAS-M-05-05, May 10, 2005).
      •   Audit Report on Management Controls over the Technology Transfer and
          Commercialization Program at the Idaho National Laboratory (OAS-M-05-07,
          June 13, 2005).
      •   Audit Report on Use of Performance Based Incentives by the Office of Civilian
          Radioactive Waste Management (DOE/IG-0702, September 30, 2005).

Project Management

      •   Audit Report on Management Controls Over Western Area Power Administration
          Central Valley Project Transmission Services (OAS-M-05-02, February 14, 2005).
      •   Special Report on Fast Flux Test Reactor: Re-evaluation of the Department's
          Approach to Deactivation, Decontamination, and Decommissioning (DOE/IG-0683,
          March 29, 2005).
      •   Audit Report on Management of Fossil Energy Cooperative Agreements
          (DOE/IG-0692, July 8, 2005).
      •   Audit Report on Sludge Removal Operations at the Hanford Site's K-Basins
          (DOE/IG-0698, September 9, 2005).

Information Technology

      •   Audit Report on Use and Management of Mobile Communications Services
          (DOE/IG-0669, December 14, 2004).
      •   Audit Report on Development and Implementation of the Department's Enterprise
          Architecture (DOE/IG-0686, April 21, 2005).

______________________________________________________________________
Page 21                            Related Reports Issued in Fiscal Year 2005
Appendix 3 (continued)

      •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2005
          (DOE/IG-0700, September 27, 2005).

Financial Management and Reporting

      •   Audit Report on Financial System Faces Continued Challenges (OAS-L-05-02,
          January 11, 2005).

Energy Supply

      •   Audit Report on Management Controls Over Electricity Transmission Scheduling and
          Usage for Memo Schedule Customers of the Bonneville Power Administration (OAS-
          M-05-01, January 25, 2005).
      •   Audit Report on Management Controls Over Critical Monitoring and Control
          Systems (OAS-M-05-06, June 3, 2005).

Worker and Community Safety

      •   Inspection Report on Coordination of Biological Select Agent Activities at
          Department of Energy Facilities (DOE/IG-0695, July 27, 2005).

Human Capital

      •   Audit Report on Selected Energy Efficiency and Renewable Energy Projects
          (DOE/IG-0689, May 12, 2005).
      •   Audit Report on Contractor Post-Retirement Health Benefits at the Oak Ridge
          Reservation (DOE/IG-0690, May 20, 2005).
      •   Audit Report on Limited Live Component Exchange Program (OAS-L-05-12,
          August 8, 2005).




______________________________________________________________________
Page 22                            Related Reports Issued in Fiscal Year 2005
                                                                    IG Report No. DOE/IG-0712

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:
1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?
2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?
3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?
4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?
5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:
                U.S. Department of Energy Office of Inspector General Home Page
                                     http://www.ig.doe.gov

                 Your comments would be appreciated and can be provided on the
                        Customer Response Form attached to the report.
